September 12, 2008

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2008 Pacific Area SmartPay Purchase
         Card Program (Report Number FF-AR-08-281)

This report presents the results of our audit of the SmartPay Credit Card purchases
by personnel in the Pacific Area Office (Project Number 08BD006FF002). This audit
is part of the Fiscal Year 2008 Financial Installation Audits we announced on August
14, 2007. Click here to go to Appendix A for additional information about this audit.

Conclusion

Generally, Pacific Area SmartPay Purchase Card transactions we reviewed were
supported and complied with U.S. Postal Service policies and procedures.
However, in the 921 transactions reviewed totaling $182,210,2 we identified the
following issues.

    •   Three cardholders made 10 purchases totaling $18,105 for which they did not
        document the business necessity for working dinner meal purchases.

    •   Five cardholders made 20 purchases for which they paid $2,110 in state or
        local sales taxes.

    •   Two cardholders did not enter three non-cash award transactions totaling
        $1,330 into the eAwards system.

    •   Four cardholders and their approving officials did not timely reconcile and
        review seven credit card statements with transactions totaling $82,441.
        However, only two statements were greater than 60 days past due, totaling
        $3,360.




1
  We selected 92 transactions; however, we were only able to review 91 transactions because one cardholder
was out of the country and could not provide any statements or supporting documents.
2
  These transactions were made by 18 cardholders.
Fiscal Year 2008 Pacific Area SmartPay                                                  FF-AR-08-281
 Purchase Card Program



We identified monetary impact of $18,105 for unrecoverable unsupported
questioned costs and $2,110 for recoverable questioned costs.3 In addition, we
identified non-monetary impact of $3,360 for disbursements at risk.4 We will report
the monetary and non-monetary impacts in our Semiannual Report to Congress.
Click here to go to Appendix B for our calculation of monetary and non-monetary
impacts.

Business Necessity of Working Dinner Meals Not Documented

Three cardholders did not clearly notate the business necessity for holding 10
separate working meetings after normal business hours, as required.5 The
transactions for these meetings totaled $18,105. For those purchases not
adequately supported, there is an increased risk of improper credit card use.

The Pacific Area Finance Manager (AFM) stated when the area plans meetings for
its executives, working dinners are often included, and area management does not
consider these as routine weekly staff meetings. In addition, the AFM stated that
many times these dinners also include recognition for their leadership, a specific
exception found in Management Instruction (MI) FM-640-2001-4, Payment for Meals
and Refreshments. Thus, in their view, the dinners are provided for the purpose of
continuing Postal Service business, as defined in the MI. The AFM stated to avoid
any future misunderstanding, the area will make reference to the specific topics of
discussion and/or recognition or group appreciation in the supporting documentation.
Because the area has agreed to address this issue, we are not making a
recommendation at this time.

Management’s Comments

Management did not agree with the finding and, although management did not
comment on the monetary impact, we assume they did not agree on the associated
monetary impact. However, management issued a memorandum on September 3,
2008, to cardholders and approving officials requiring a list of attendees, the specific
agenda, and a Working Meal Justification Form indicating the reason and date for
the working meal be included for each eBuy request for working meals.
Management’s comments, in their entirety, are included in Appendix C.




3
  Questioned costs are costs that are unreasonable, unnecessary, unsupported or an alleged violation of law.
Unsupported cost is a questioned cost only because of missing or incomplete documentation or failure to follow
required procedures. The U.S. Postal Service Office of Inspector General (OIG) categorizes questioned costs as
recoverable or unrecoverable. Recoverable means the Postal Service is able to recoup the cost in question
(e.g., if the Postal Service had overpaid a cost).
4
  Disbursements made where proper Postal Service internal controls and processes were not followed.
5
  MI FM-640-2001-4, Payment for Meals and Refreshments, September 24, 2001.

                                                      2
Fiscal Year 2008 Pacific Area SmartPay                                               FF-AR-08-281
 Purchase Card Program


Cardholders Paid Sales Tax

Five cardholders either did not seek or did not receive $2,110 in tax exemptions on
20 purchases. Purchases made with the credit card and billed to the Postal Service
are entitled to exemptions from state and local taxes.6 The cardholders generally
stated payment of the sales tax was due to an oversight. By paying state and local
taxes, the Postal Service incurred unnecessary expenses. During the audit, the five
cardholders requested and received credits for taxes paid totaling $1,840.

We recommend the Vice President, Pacific Area Operations:

    1. Reinforce the policy to seek tax exemptions on SmartPay Purchase Card
       transactions.

Management’s Comments

Management agreed with our finding, recommendation, and monetary impact, and
issued a memorandum dated September 3, 2008, to Pacific Area cardholders and
approving officials reinforcing the requirements in Handbook AS-709, Section 334.4.
In addition, cardholders and approving officials have been given a copy of the form
to provide to merchants to request the tax exemption and instructions on how to
request a credit if they erroneously pay taxes. Further, the area received credit
refunds totaling $1,883.97 for 12 of the 20 purchases. They were unable to obtain
credit refunds for the remaining amount due to the age and/or dollar amount of the
individual transactions.

Non-Cash Awards Were Not Entered Into eAwards

Two cardholders did not enter three non-cash awards totaling $1,330 into eAwards.7
The cardholders stated this was an oversight. If non-cash awards are not reported
as required, the Postal Service could be in violation of statutory and legislative
requirements.

We recommend the Vice President, Pacific Area Operations:

    2. Reinforce the policy to enter awards into eAwards.

Management’s Comments

Management agreed with our finding and recommendation and issued a
memorandum dated September 3, 2008, to Pacific Area cardholders and approving
officials that reinforces the Awards and Recognition Program and the Employee and
Labor Relations Manual Award Policy, Section 470. In addition, the memorandum

6
  Handbook AS-709, Credit Card Policies and Procedures for Local Buying, October 2003 (updated through
October 26, 2006), Section 334.3.
7
  Memorandum of Policy, ERM-01-12-06, Recognition and Awards Program, January 12, 2006.

                                                     3
Fiscal Year 2008 Pacific Area SmartPay                                 FF-AR-08-281
 Purchase Card Program


assigns responsibility to the person who requests the purchase through eBuy to
ensure the appropriate awards are reported timely into eAwards.

Monthly Reconciliation Procedures Need Strengthening

Four cardholders and their approving officials did not follow monthly reconciliation
procedures for seven of 55 credit card statements reviewed. The transactions
associated with these statements totaled $82,441. Specifically, the statements were
not signed, dated, and approved within the required 30-day period.8 Two of the
seven statements (with transactions totaling $3,360) were not signed within 60 days
of the statement date. The Postal Service cannot dispute transactions that occurred
more than 60 days from the receipt of the statement of account.

Cardholders and approving officials stated they did not review and reconcile
statements or did not do so in a timely manner due to an oversight. When
purchases are not completed in accordance with Postal Service procurement
policies, there is an increased risk of unauthorized purchases and loss of funds
without detection.

We recommend the Vice President, Pacific Area Operations:

      3. Reinforce the policy for cardholders and approving officials to review,
         reconcile, date, and sign credit card statements on a monthly basis.

Management’s Comments

Management agreed with our finding, recommendation, and non-monetary impact,
and issued a memorandum dated September 3, 2008, to Pacific Area cardholders
and approving officials that reinforces the reconciliation process and retention
procedures.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to all the
recommendations and corrective actions should resolve the issues in the report




8
    Handbook AS-709, Frequently Asked Questions, Chapter 4, page 23.

                                                      4
Fiscal Year 2008 Pacific Area SmartPay                             FF-AR-08-281
 Purchase Card Program


We appreciate the cooperation and courtesies provided by your staff. If you have
any questions or need additional information, please contact Linda Libician-Welch,
Director, Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:     Susan M. Brownell
        Lynn Malcolm
        Vincent H. DeVito, Jr.
        Marie Martinez
        Stephen J. Nickerson
        David B. Stowe
        Annette M. Goetz
        Loren D. Machart
        Katherine S. Banks

.




                                         5
Fiscal Year 2008 Pacific Area SmartPay                              FF-AR-08-281
 Purchase Card Program


                       APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Since November 1991, the Postal Service has utilized the government-wide
Commercial Credit Card Program administered by the General Services
Administration. The current contractor is U.S. Bank, Minneapolis, Minnesota, and
the card company is VISA®. The program within the Postal Service is called the
SmartPay Purchase Card Program, which is cosponsored by Supply Management
and Finance. The Postal Service pays no administrative fees for the services U.S.
Bank provides and earns refunds based on the aggregate volume of Postal Service
transactions. Until recently, the purchase card was commonly referred to as the
International Merchant Purchase Authorization Card (IMPAC). This was a registered
U.S. Bank trademark name, but the bank no longer uses it.

When eBuy or other consolidated Finance-approved payment processes are not an
option, the purchase card is the primary delegated local buying authority (the
authority to buy and pay for day-to-day operational needs). Generally, a single
purchase card transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow the
purchasing guidelines for approved expenditures set by the Postal Service in
Handbook AS-709 and various manuals, handbooks, MIs, and locally issued
guidance. This guidance requires cardholders to maintain documentation, including
approved purchasing requests, sales and credit drafts and receipts, and delivery
documentation. In addition, guidance requires cardholders to maintain
documentation supporting the timely review of monthly statements by cardholders
and approving officials.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if SmartPay Purchase Card Program
purchases were supported and complied with Postal Service policies and
procedures. To accomplish this objective, we judgmentally selected a sample of
transactions using the IMPAC report from the Accounting Data Mart for the
three-digit district code related to the Pacific Area. This approach resulted in a
universe of 849 purchase card transactions totaling $395,032. We selected the
sample of area transactions based on risk factors such as type of purchases (meals
and communications) and vendors. Specifically, we judgmentally selected
transactions that were either over $9,000, restricted, prohibited, made on the
weekend, or for purchases of pilferable items. Using these risk factors, we selected
92 transactions totaling $182,210 made from July 2007 through June 2008 by 18
cardholders.

We conducted this financial audit from July to September 2008 in accordance with
generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those

                                          6
Fiscal Year 2008 Pacific Area SmartPay                                FF-AR-08-281
 Purchase Card Program


standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on
our audit objective. We believe the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on August 7, 2008, and
included their comments where appropriate.

We relied on data obtained from the Postal Service’s Enterprise Data Warehouse
Accounting Data Mart and performed specific internal control and transaction tests
on this system’s data to include tracing selected purchase transactions to supporting
documentation. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. Finally, we
interviewed supervisors and employees and observed operations.

PRIOR AUDIT COVERAGE

The OIG has not conducted any prior audits of the SmartPay Purchase Card
Program at the Pacific Area level. However, we issued three district audit reports
within the Pacific Area and two area reports, as shown below.

                                            Final
                           Report          Report     Monetary
   Report Title            Number           Date       Impact             Report Results
Fiscal Year 2008       FF-AR-08-279      9/8/08         N/A       We did not identify any control and
Southeast Area                                                    compliance issues with the
SmartPay                                                          Southeast Area’s SmartPay
Purchase Card                                                     Purchase Card program.
Program                                                           Purchases were made in
                                                                  accordance with Postal Service
                                                                  procurement policies.
Fiscal Year 2008       FF-AR-08-270      8/22/2008      N/A       Cardholders and approving officials
Capital Metro Area                                                did not follow monthly reconciliation
SmartPay Purchase                                                 procedures.
Card Program
Fiscal Year 2007       FF-AR-08-038      11/30/2007   $103,694    Cardholders did not always:
Financial
Installation Audit –                                              •   Make purchases from
SmartPay Purchase                                                     authorized vendors.
Card – Santa Ana                                                  •   Prepare or maintain proper
District, Santa Ana,                                                  documentation for purchases
California                                                            and did not obtain proper
                                                                      approval for transactions.
                                                                  •   Use proper payment methods
                                                                      and adhere to purchase limits.

                                                                  Cardholders and approving officials
                                                                  did not follow monthly reconciliation
                                                                  procedures.



                                              7
Fiscal Year 2008 Pacific Area SmartPay                               FF-AR-08-281
 Purchase Card Program




Fiscal Year 2007       FF-AR-08-026      11/14/2007   $166,693   Cardholders did not always:
Financial
Installation Audit –                                             •   Make purchases for authorized
SmartPay Purchase                                                    items.
Card – Los Angeles                                               •   Prepare or maintain proper
District, Los                                                        documentation for purchases.
Angeles, California                                              •   Obtain proper approval for
                                                                     transactions.
                                                                 •   Use proper payment methods,
                                                                     training requirements, and
                                                                     credit card security provisions.

                                                                 Cardholders and approving officials
                                                                 did not follow monthly reconciliation
                                                                 procedures.
Fiscal Year 2007       FF-AR-08-015      10/24/2007   $16,052    Cardholders did not always:
Financial
Installation Audit –                                             •   Prepare or maintain proper
SmartPay Purchase                                                    documentation for purchases
Card Program –                                                       and did not obtain proper
Sacramento                                                           approval for transactions.
District, West                                                   •   Track purchases and follow
Sacramento,                                                          purchase card policies and
California                                                           procedures.
                                                                 •   Enter gift cards into eAwards.

                                                                 Cardholders and approving officials
                                                                 did not follow monthly reconciliation
                                                                 procedures.
Fiscal Year 2007       FF-AR-07-202      7/20/2007    $144,759   The district implemented a local
Financial                                                        procedure to keep track of
Installation Audit –                                             expenses that involved charging
IMPAC – San                                                      incorrect finance numbers.
Francisco District,
San Francisco,                                                   Cardholders did not always:
California
                                                                 •   Prepare or maintain proper
                                                                     documentation for purchases
                                                                     and did not obtain proper
                                                                     approval for transactions.
                                                                 •   Track purchases and follow
                                                                     IMPAC policies and
                                                                     procedures.




                                              8
Fiscal Year 2008 Pacific Area SmartPay                                FF-AR-08-281
 Purchase Card Program


APPENDIX B: MONETARY AND NON-MONETARY IMPACT SUMMARY



                          Monetary Impact – Questioned Costs

    Number of                                              Questioned
   Transactions                  Description                  Costs        Amount
        10             Business necessity of working      Unrecoverable     $18,105
                       dinner meals not documented        Unsupported
          20           Sales tax paid on purchases        Recoverable          2,110
                       TOTAL                                                 $20,215




                    Non-Monetary Impact – Disbursements at Risk

           Number of
          Transactions                     Description                Amount
               2                Monthly reconciliation procedures       $3,360
                                need strengthening




                                              9
Fiscal Year 2008 Pacific Area SmartPay                   FF-AR-08-281
 Purchase Card Program


                     APPENDIX C: MANAGEMENT’S COMMENTS




                                         10
Fiscal Year 2008 Pacific Area SmartPay        FF-AR-08-281
 Purchase Card Program




                                         11
Fiscal Year 2008 Pacific Area SmartPay        FF-AR-08-281
 Purchase Card Program




                                         12
